       ARMED SERVICES BLOOD PROGRAM READINESS


Report No. D-2001-059               February 23, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AFB                   Air Force Base
ASBPO                 Armed Services Blood Program Office
ASWBPL                Armed Services Whole Blood Processing Laboratory
BDC                   Blood Donor Center
BTC                   Blood Transshipment Center
CONUS                 Continental United States
FDA                   Food and Drug Administration
JBPO                  Joint Blood Program Office
SBPO                  Service Blood Program Office
USEUCOM               U.S. European Command
USPACOM               U.S. Pacific Command
                          Office of the Inspector General, DoD
Report No. D-2001-059                                            February 23, 2001
 Project No. D2000LF-0028
 (formerly Project No. 0LF-0106)

                     Armed Services Blood Program Readiness

                                   Executive Summary

Introduction. This audit is the first in a series of audits concerning the Armed Services
Blood Program. The Armed Services Blood Program mission is to provide quality fresh
and frozen blood products, blood substitutes, and services for all worldwide customers in
peacetime and war. In FY 1999, blood program costs, including personnel, operations
and maintenance, and testing were $26.7 million.

The Armed Services Blood Program consists of 11 categories of activities, including the
Armed Services Blood Program Office, Military Department blood program offices,
unified command blood program offices, blood program organizations within the Military
Departments, and military treatment facilities. Each of these activities is critical to the
successful collection, storage, and distribution of blood products.

The frozen blood program was established to allow prepositioning of frozen blood
products within unified commands and aboard ship. Pre-positioned repositories provide
blood products during the initial stages of a contingency operation or war until liquid
products can be supplied from the continental United States. Frozen red blood cells have a
Food and Drug Administration-approved shelf life of 10 years. However, frozen red
blood cells have a DoD-approved shelf life of up to 21 years for readiness purposes.

Objectives. The overall objective of the audit was to determine whether management and
administration of the Armed Services Blood Program is adequate to ensure quality blood
products are properly handled and controlled during peacetime and wartime. This report
also addresses the readiness of the Armed Services Blood Program. Future audits will
address blood program information systems and operating efficiencies. We also reviewed
the adequacy of the management control programs as they applied to the audit objective.

Results. The DoD needs to improve readiness management of the Armed Services Blood
Program. The DoD blood program offices did not properly manage the frozen red blood
cell inventory of the Armed Services Blood Program. Of the 33 blood program
organizations that provided inventory data, 18 did not meet their wartime inventory
requirements. As a result, DoD did not have accurate frozen red blood cell inventory
reporting and accountability, which could impact major theater war operations (finding A).

In addition, DoD needs to improve mobilization planning and training for the Armed
Services Blood Program. Of the three Military Department blood program offices, two
did not prepare sufficient mobilization planning documents. Of the 15 blood program
organizations visited, 9 did not have written, approved mobilization plans that would
clearly identify actions needed by the organizations in the event of a contingency. In
addition, 13 of the 15 blood program organizations visited have mobility missions and 6 of
those did not have complete organization-level training. Only one of the unified
commands visited had the blood program organizations within its command involved in
joint- or unified command-level training exercises. As a result, the blood program
organizations may not be able to properly activate in the event of a mobilization (finding
B). See Appendix A for details on the management control program as it relates to frozen
blood inventory management, mobilization planning, and training.

Summary of Recommendations. We recommend that the Director, Armed Services
Blood Program Office, issue policy that defines the various categories of blood unit status,
requires reporting of the different categories, and identifies the use and disposition of each
category. The Director should also prepare a plan for meeting future testing requirements
and establish controls to ensure frozen blood inventory requirements are met. We further
recommend the Assistant Secretary of Defense (Health Affairs) study the feasibility of
using frozen blood during peacetime. We recommend that the Surgeons General budget to
replace untested and expired red blood cell inventory, ensure blood program organizations
develop mobilization plans, and ensure blood program organizations adequately prepare
and train for their mobility missions. Further, we recommend that the Joint Staff
incorporate training in blood program distribution and processing into joint- and unified
command-level exercises.

Management Comments. The Armed Services Blood Program Office partially concurred
with our findings and recommendations. They acknowledged that management of the
frozen red blood cell inventory needed improvement. However, they disagreed that the
current inventory was insufficient to support contingency requirements because DoD
allows frozen red blood cells more than 10 years but less than 21 years old to be used in a
contingency. They concurred with our recommendations to issue policy regarding
standard identification, use, and disposition of frozen red blood cells; establish a plan
when new tests are required; and study the use of frozen blood in peacetime. However,
they indicated that a major impediment to a successful program is insufficient staffing. In
addition, funding will be needed to replace existing inventory.

The Military Departments concurred with the recommendations to fund for the
replacement of untested and expiring inventory and to require blood program organizations
to prepare mobilization plans and train in their mobility mission. The Joint Staff
commented that there was a joint training exercise in 2000 for blood distribution and there
was a first ever class in 2000 for five Area Joint Blood Officers.

Audit Response. As a result of management comments, we modified the report to allow
for contingency purposes frozen red blood cells that are untested, but appropriately
labeled, or more than 10 years but less than 21 years old. However, we believe that DoD
should work toward a frozen blood inventory composed entirely of fully tested,
nonexpired red blood cell units. While our recommendations did not change, we
acknowledge that replacing all untested and expired blood is difficult at this time.

The Armed Services Blood Program Office comments were fully responsive; however, the
Joint Staff comments did not adequately address the recommendations. The Army, the
Navy, and the Air Force comments were partially responsive. Therefore, we request the
Joint Staff provide comments on implementing joint- and command-level blood-related
training. In addition, we request the Army provide additional comments on controls it will
use to ensure training is accomplished. We request the Navy provide additional comments
on funding inventory replacement, implementing mobilization planning and training
requirements, and establishing mobilization planning documents. Additionally, we request
the Air Force provide additional comments on identifying mobilization sources at blood
program organizations. We request management provide comments by April 23, 2001.


                                              ii
Table of Contents

Executive Summary                                     i


Introduction
     Background                                       1
     Objectives                                       3

Findings
     A. Frozen Red Blood Cell Inventory Management    4
     B. Mobilization Planning and Training           18

Appendixes
     A. Audit Process
         Scope and Methodology                       28
         Management Control Program Review           29
         Prior Coverage                              30
     B. Armed Services Blood Distribution System     31
     C. Glossary                                     32
     D. Blood Program Policies                       34
     E. Future Blood Program Initiatives             37
     F. Report Distribution                          40

Management Comments
     Armed Services Blood Program Office             43
     Joint Staff                                     53
     Department of the Army                          55
     Department of the Navy                          57
     Department of the Air Force                     63
     U.S. Pacific Command                            66
Background
           Armed Services Blood Program. The Armed Services Blood Program (the
           Blood Program) was formally established by Presidential Order in 1952 as the
           Military Blood Program, part of the National Blood Program. The Blood
           Program’s mission is to provide quality blood products, blood substitutes, and
           services for all worldwide customers in peace and war. In FY 1999, blood
           program costs, including personnel, operations and maintenance, and testing
           were $26.7 million.

           Blood Program Activities. The Blood Program consists of 11 categories of
           activities, including blood program offices1 and blood program organizations.2
           Each of these activities is critical to the successful collection, storage, and
           distribution of blood products. See Appendix B for a depiction of how the
           blood program activities interact to form the blood distribution system. See
           Appendix C for a glossary of key terms, including a description of the blood
           program activities.

           Blood Program Management. The primary blood program offices responsible
           for the management of the Blood Program are the Armed Services Blood
           Program Office (ASBPO), the Service Blood Program Offices (SBPOs), and the
           Joint Blood Program Offices (JBPOs).

                   Armed Services Blood Program Office. The ASBPO is a joint health
           agency chartered to monitor the implementation of blood program policies
           established by the Assistant Secretary of Defense (Health Affairs) and to
           coordinate the blood programs of the Military Departments and unified
           commands. The Army Surgeon General, on behalf of the Secretary of the
           Army, serves as the Executive Agent for the ASBPO and provides
           administrative support and staff supervision. The ASBPO is required to
           coordinate day-to-day activities of the Blood Program, establish blood quotas for
           the Military Departments, and ensure frozen blood products are prepositioned.
           The ASBPO relies on the SBPOs and the JBPOs to manage the Military
           Department and unified command blood programs, respectively, during
           peacetime and wartime.

                  Service Blood Program Offices. The SBPOs manage the individual
           Service blood programs and are responsible for establishing Service-unique
           quotas for readiness and identifying mobilization requirements. The primary
           focus of the SBPOs is peacetime blood program management at the military
           treatment facilities. More specifically, the focus has been on Food and Drug
           Administration (FDA) licensure and compliance issues in response to increased
           regulatory requirements established by the FDA.


1
    For this report, we considered the blood program offices as the Armed Services Blood Program Office,
    the Service blood program offices, and the unified command joint blood program offices.
2
    For this report, we considered the blood program organizations as the operational activities within the
    Blood Program, including the armed services whole blood processing laboratories, blood donor centers,
    blood product depots, blood transshipment centers, and transportable blood transshipment centers.



                                                      1
                  Joint Blood Program Offices. The JBPOs serve as the overall manager
           for blood and blood components within the unified commands by managing and
           coordinating the total joint blood product requirements and capabilities. The
           JBPOs primarily focus on in-theater readiness requirements. Area JBPOs may
           be required to assist the JBPOs for specified geographic areas within the unified
           command.

           DoD Blood Program Policies. DoD Instruction 6480.4, “Armed Services
           Blood Program Operational Procedures,” August 5, 1996, is the primary policy
           for the Blood Program. Each Military Department and most of the unified
           commands have issued policies that implement the DoD policy. The policies
           are summarized in Appendix D.

           Blood Products. Blood is considered the whole blood collected from a single
           donor and can be broken down into three major components: red blood cells,
           plasma, and platelet concentrates. Freezing red blood cells and plasma is
           approved by the FDA. Freezing platelets has not been approved.

                    •   Red blood cells. Glycerol is added to the red blood cells before
                        freezing. When the red cells are thawed, the glycerol is removed
                        through a deglycerolization process. Frozen red blood cells have an
                        FDA-approved shelf life of 10 years.3 Thawed, deglycerolized red
                        blood cells have a shelf life of 24 hours.

                    •   Plasma. Thawed plasma can be immediately transfused because no
                        chemicals have to be removed. Frozen plasma has an FDA-approved
                        shelf life of 1 year or 7 years depending on storage temperature.
                        Thawed plasma has a shelf life of 24 hours.

           Frozen Blood Program. The frozen blood program was established to allow
           prepositioning of frozen blood products within the unified commands and aboard
           ship. Pre-positioned repositories provide blood products during the initial stages
           of a contingency operation or war until liquid products can be supplied from the
           continental United States (CONUS). The JBPOs, who determine the frozen
           blood requirements for the unified commands, plan for the use of frozen blood
           products during the first 10 days of a contingency operation.

           The majority of the frozen blood product inventory is maintained in four blood
           product depots—three located in the U.S. Pacific Command (USPACOM) and
           one in the U.S. European Command (USEUCOM). The Armed Services
           Whole Blood Processing Laboratories (ASWBPLs) are also required to maintain
           a supply, primarily as a supplement to the blood product depots.

           Blood Usage Planning. The DoD uses the Medical Analysis Tool, an
           automated medical support system, to determine blood requirements during
           contingencies. The Medical Analysis Tool system establishes blood
           requirements based on the population at risk and estimated casualty rates.



3
    The DoD has requested FDA approve extending the frozen red blood cells shelf life to 17 years. See
    Appendix E for details.



                                                     2
     The Services provide the data to the unified commands, who incorporate the
     Service-specific data into their mobilization plans. Unified command blood
     requirements are provided to ASBPO and the Joint Staff, who plan and program
     for blood support.


Objectives
     The overall objective of the audit was to determine whether the management and
     administration of the Blood Program is adequate to ensure quality blood
     products are properly handled and controlled during peacetime and wartime.
     This audit is the first in a series of audits concerning the Blood Program. This
     report discusses concerns with the readiness of the Blood Program. Future
     audits will address blood program information systems and operating
     efficiencies. We also reviewed the adequacy of the management control
     programs of the ASBPO and the Military Department Surgeons General offices,
     as they applied to the audit objective. See Appendix A for a discussion of the
     audit scope and methodology, review of the management control programs, and
     prior coverage related to the audit objectives.




                                        3
                     A. Frozen Red Blood Cell
                        Inventory Management
                     The DoD blood program offices did not properly manage the frozen red
                     blood cell inventory of the Armed Services Blood Program. Of the
                     33 blood program organizations that provided inventory data, 18 did not
                     meet their inventory requirements. This occurred because the ASBPO
                     did not provide a clear policy that standardized identification, use, and
                     disposition of the frozen red blood cell inventory. In addition, the
                     ASBPO did not establish a written plan for replacing or rotating untested
                     or expired inventory. As a result, DoD did not have accurate frozen red
                     blood cell inventory reporting and accountability which could impact
                     major theater war operations.


Composition of the Frozen Red Blood Cell Inventory
            For this report we grouped the frozen red blood cell inventory into three types
            of units of blood—fully tested, nonexpired units; HIV-1 p24 antigen4 untested
            units; and expired units. The fully tested, nonexpired units are those units
            tested in accordance with current FDA requirements and do not exceed the
            10-year frozen shelf-life restriction established in 1987 by the FDA. The
            HIV-1 p24 antigen untested units are those units frozen before implementing the
            antigen test and not subsequently tested. The expired units are those units that
            have exceeded the 10-year frozen shelf-life requirement. However, the DoD
            allows that both untested units and expired units may be used for contingency
            purposes.

            Untested Units. DoD retains untested units in the event of a contingency as
            allowed by the FDA in its April 8, 1996 letter to the Director, ASBPO.
            Specifically, the letter states that if testing is not available, the unit should be
            labeled with a “Caution” statement. The letter further states that all units so
            labeled should “only be used in cases of emergency, including military need.”
            The FDA letter to the Director, ASBPO, was sent to supplement the
            requirements in its August 8, 1995 memorandum, “Recommendations for Donor
            Screening with a Licensed Test for HIV-1 Antigen” concerning HIV-1 antigen
            testing. As a result of the FDA memorandum, military blood inventory storage
            facilities were tasked, in accordance with ASBPO memorandum, “Donor
            Screening for HIV-1 Antigen,” October 4, 1995, to test their stored frozen red
            blood cell units using the HIV-1 p24 antigen test. However, a portion of the
            frozen red blood cell inventory could not be tested for the HIV-1 p24 antigen
            because there were no serum cryovials5 available for the additional test or the
            cryovials were inadequate for HIV-1 p24 antigen testing. The untested units are
            being retained for contingency purposes.

4
    The HIV-1 p24 antigen test, implemented in 1995, reduced the window period between an individual’s
    exposure to HIV and a positive test result, lowering it from 25 days to 16 days.
5
    Cryovials contain small quantities of blood from the unit that are generally stored with the unit to allow
    for future testing.


                                                        4
           Expired Units. DoD has established different shelf lives for frozen red blood
           cell units, depending on whether the units will be used during peacetime or in
           the event of a contingency. For peacetime purposes, the frozen red blood shelf
           life is 10 years, as approved by the FDA. However, for readiness purposes, the
           frozen red blood shelf life is currently 21 years. Joint Publication 4.02-1, “Joint
           Tactics, Techniques, and Procedures for Health Service Logistics Support in
           Joint Operations,” October 6, 1997, and Army Field Manual 8-55, “Planning
           for Health Service Support,” September 9, 1994, allow frozen red blood cells
           with a shelf life of up to 21 years to be used to meet wartime requirements. The
           extension was given by the Defense Medical Standardization Board in the
           publication, “Deployable Medical Systems Policies and Guidelines Treatment
           Briefs,” July 1990, based on the data submitted with a request for FDA
           approval for extended use of frozen blood.


Frozen Red Blood Cell Inventory Requirements
           Frozen red blood cell inventory requirements are contained in the following
           plans and policies.

                    •   ASBPO Blood Program Letter 98-7, “Revised Service Blood Product
                        Quotas,” August 25, 1998 (the ASBPO letter), identifies specific
                        inventory requirements for each ASWBPL and overall inventory
                        requirements for USEUCOM and USPACOM.

                    •   Draft Appendix 2 to Annex Q, March 2000,6 of USPACOM
                        Operations Plan 5027-98, is a revised plan that identifies specific
                        inventory requirements for the individual blood program
                        organizations within USPACOM. If approved, the March 2000 plan
                        will replace the current requirements outlined in USCINCPAC
                        (U.S. Commander in Chief, U.S. Pacific Command) Instruction
                        6530.2J, “U.S. Pacific Command Joint Blood Program,” April 20,
                        1998. The revised plan contains reduced inventory requirements
                        from the current plan based on lower casualty expectations.

                    •   OPNAV Instruction 6530.4A, “Department of the Navy Blood
                        Program,” October 14, 1994 (the Navy Instruction), identifies frozen
                        red blood cell inventory requirements for Navy military treatment
                        facilities and ships. Ship requirements were revised in Navy
                        memorandum, “Review of Shipboard Frozen Blood Requirements,”
                        February 26, 1997 (the Navy Memorandum). The Navy revised the
                        inventory requirements for selected Navy installations in CONUS
                        and one facility in USPACOM, in an October 24, 2000
                        memorandum, “Reorganization of the Navy Blood Program and
                        Revised Blood Donor Center Operational Requirements” (the Navy
                        Revision Memorandum).


6
    The blood inventory requirements in the draft appendix in Operations Plan 5027-98 have not been
    officially approved by the ASBPO; however, the ASBPO indicated approval is likely. Therefore, the
    revised lower inventory requirements stated in the Operations Plan are being used in this report.



                                                    5
Frozen Blood Inventory
           The DoD blood program offices did not properly manage the frozen red blood
           cell inventory of the Blood Program. Of the 33 blood program organizations
           that reported frozen blood inventory, 18 did not meet their specific inventory
           requirements, as established by the blood program offices. The 33 blood
           program organizations included 2 ASWBPLs, 4 organizations in USEUCOM,
           14 organizations in USPACOM, the Naval Medical Center Portsmouth,
           Virginia, (including 5 U.S. Atlantic Fleet ships), and the Naval Medical Center
           San Diego, California, (including 6 U.S. Pacific Fleet ships).7

           The frozen red blood cell inventory includes three categories of frozen red blood
           cells.

                    •   Fully tested and nonexpired units.

                    •   Untested units, that is, units not tested for the HIV-1 p24 antigen, but
                        appropriately labeled.

                    •   Expired units, that is, units more than 10 years but less than 21 years
                        old.

           The blood program offices could not identify the number of frozen red blood cell
           units that fell into the various categories for the blood program organizations’
           inventory.

           DoD allows using any of the three categories of blood units for contingency
           purposes, because FDA approved using appropriately labeled, untested units for
           military need, and DoD approved using blood more than 10 years but less than
           21 years old for contingency use. However, we believe that DoD should strive
           to have frozen blood inventory composed entirely of fully tested, nonexpired red
           blood cell units.

           Figure 1 shows the on-hand frozen blood inventory at the ASWBPLs,
           USEUCOM, and USPACOM compared with the requirements identified in the
           ASBPO Letter. Figure 2 shows the on-hand frozen blood inventory of Naval
           facilities compared with the requirements outlined in the Navy Instruction and
           the Navy Memorandums. The inventory data includes known untested and
           expired units.




7
    The Blood Bank Division Officers for the Naval Medical Centers at Portsmouth and San Diego also
    serve as the respective blood program managers for the Atlantic and Pacific Fleets.



                                                    6
      ASWBPL Travis AFB




   ASWBPL McGuire AFB




                    USPACOM




                   USEUCOM


                                    0            10        20        30        40        50        60    70    80   90   100
                                                                      Percent of Total Requirements


 Note: Goal equals 100 percent for each applicable organization based on the requirements in the ASBPO Letter.
 Inventory includes known expired and untested units in the totals.


    Figure 1. Frozen Blood Inventory and Requirements Based on the
    ASBPO Letter




               U.S. Naval Hospital Naples

            Sigonella Blood Product Depot

                U.S. Naval Hospital Guam

  Portsmouth and U.S. Atlantic Fleet Ships

   San Diego and U.S. Pacific Fleet Ships

                 U.S. Naval Hospital Rota

         Naval Medical Center Portsmouth

          Naval Medical Center San Diego

            Okinawa Blood Product Depot

            U.S. Naval Hospital Yokosuka

                                             0        10        20        30        40        50    60    70   80   90   100


                                                                           Percent of Total Requirements

   Note: Goal equals 100 percent for each applicable organization based on the requirements in the Navy
   Instruction, the Navy Memorandum, and the Navy Revision Memorandum. Inventory includes known
   expired and untested units in the totals.



Figure 2. Navy Frozen Blood Inventory and Requirements




                                                                               7
Armed Services Whole Blood Processing Laboratories. Inventory
requirements for the ASWBPLs are identified in the ASBPO letter. The
ASWBPL at McGuire Air Force Base (AFB), New Jersey, met 51 percent of
the inventory requirements contained in the ASBPO letter. The ASWBPL at
Travis AFB, California, met 42 percent of its inventory requirements contained
in the ASBPO letter. If the known untested and expired units are removed from
the inventory, the inventory rates drop to 16 percent and 32 percent,
respectively.

U.S. European Command. The total frozen red blood cell inventory
requirements for USEUCOM are included in the ASBPO letter. In addition, the
Navy Instruction identifies requirements for the three Navy facilities.
USEUCOM met the inventory requirements contained in the ASBPO letter. If
the known untested or expired units are removed from the on-hand inventory,
USEUCOM meets 75 percent of its inventory requirements. The rate may be
less than 75 percent because untested units were reported by only one of the
four USEUCOM facilities.

None of the three Navy facilities in USEUCOM met inventory requirements, as
stated in the Navy Instruction. Based on total inventory, the facilities had
94 percent, 65 percent, and 17 percent of current inventory requirements. Of
the three Navy facilities, two could not identify the number of untested units and
one did not have expired units. If known untested and expired units are
removed from the inventory, the first facility’s inventory rate remains
unchanged; however, the remaining two facilities inventory rate drops to
46 percent and 9 percent, respectively.

U.S. Pacific Command. The ASBPO letter identifies overall USPACOM
frozen red blood cell inventory requirements. In addition, the draft USPACOM
Operations Plan identifies facility-specific inventory requirements whose total
requirements are less than those in the ASBPO letter. Further, for the three
Navy facilities in USPACOM, requirements for two are outlined in the Navy
Instruction and one in the Navy Revision Memorandum.

USPACOM has 80 percent of the ASBPO-required inventory. However, if
known untested and expired units are removed from the on-hand inventory, the
rate drops to 60 percent. USPACOM met the total inventory requirements in
the draft Operations Plan; however, five facilities did not meet their individual
requirements. If known untested and expired units are removed from the
inventory, the USPACOM inventory rate drops below 100 percent of the
inventory requirements in the draft Operations Plan.

Of the three Navy facilities, two met their inventory requirements. However,
when the known untested and expired units were removed from the inventory,
no facility met its requirements.




                                    8
           Naval Medical Center Portsmouth and the U.S. Atlantic Fleet Ships. The
           Naval Medical Center Portsmouth met its frozen red blood cell inventory
           requirements, as required by the Navy Revision Memorandum.8 However,
           some of the frozen red blood cell units in the Portsmouth inventory are being
           stored for ships in port. A total of five U.S. Atlantic Fleet ships whose blood
           inventory is managed by the medical center have frozen red blood cell inventory
           requirements per the Navy Memorandum. Of the five ships, three did not meet
           requirements (including the two ships in port) and two exceeded requirements.
           When the medical center’s inventory is combined with the ship’s inventory, they
           met 84 percent of total requirements. The number of untested units was not
           provided and the facility had no expired units.

           Naval Medical Center San Diego and the U.S. Pacific Fleet Ships. The
           Naval Medical Center San Diego met its inventory requirements based on the
           Navy Revision Memorandum. A total of six U.S. Pacific Fleet ships whose
           blood inventory is managed by the medical center have frozen red blood cell
           inventory requirements per the Navy Memorandum. Of the six ships, four did
           not meet requirements and two exceeded requirements. When the medical
           center’s inventory is combined with the ship’s inventory, they met 86 percent of
           total requirements. If the known untested or expired units are removed from the
           inventory, the rate drops to 33 percent.

           The inadequate management of the frozen red blood cell inventory occurred
           because DoD did not issue clear policy that standardized identification, use, and
           disposition of the frozen red blood cell inventory. In addition, DoD did not
           develop a written plan for replacing the untested and rotating the expired or
           expiring frozen red blood cell units. Although the FDA approved untested units
           for military need and DoD allowed expired units for contingencies, DoD needs
           to work toward maintaining a frozen blood inventory composed of fully tested,
           nonexpired red blood cell units.


Inventory Identification and Disposition
           The ASBPO did not issue policy that clearly describes the categories for frozen
           blood inventory or explains the use and disposition of expired and HIV-1 p24
           antigen untested units currently in storage. Without clear policy, the ASBPO
           and the Military Departments were unable to properly account for the frozen
           blood inventory by type of unit for each blood program organization.

           Blood Unit Status Descriptions. The ASBPO did not issue clear policy that
           describes the status of the blood units. The descriptions used to identify the
           status of the frozen red blood cell units in the inventory records varied among
           frozen blood storage facilities. Of the organizations that provided unit status
           descriptions for the fully tested, nonexpired units, three organizations described
           the units as “available,” while six organizations described those units as

8
    After the draft report was issued on September 1, 2000, the Navy issued a memorandum revising the
    inventory requirements for its CONUS and USPACOM facilities. Prior to issuance of the Navy
    Revision Memorandum, the Naval Medical Centers in Portsmouth and San Diego did not meet their
    inventory requirements, as stated in the draft report.



                                                     9
           “good.” Of the seven organizations that had HIV-1 p24 antigen untested units
           on hand and reported a unit status description, one categorized the units as
           “training” units, one as “quarantined,” two as “good,” and three used both
           “training” and “good.” Of the six organizations that had expired units on hand
           and reported a unit status description, two categorized the units as “training”
           units, two as “quarantined,” and two as “expired.” While expired blood
           inventory is known because all blood program organizations provided an
           expiration schedule based on the FDA-approved 10-year shelf life, the number
           of HIV-1 p24 antigen untested blood units is not known because only 42 percent
           of the organizations identified the untested units.

           When asked for information regarding the frozen blood in storage, the ASBPO
           stated that “quarantined” units should be considered “training” units, but did not
           specify whether the unit status description should be “training” or
           “quarantined.” Policy is needed that clearly describes the various blood unit
           statuses to make the data on inventory schedules more consistent. In addition,
           the “Blood Bank Operational Report”9 used to report inventory information
           should be updated so that the number of units in each status category is
           reported.

           Blood Unit Use and Disposition. The ASBPO did not issue clear guidance
           regarding the use and disposition of untested and expired units of blood. A
           July 10, 1996, memorandum from the Assistant Secretary of Defense (Health
           Affairs) outlines the disposition of untested units, but the memorandum does not
           clearly state how the units are to be used. As a result, the blood storage
           facilities will use or dispose of similar units differently. Most storage facilities
           visited have continued to maintain expired units in the event extension approval
           is granted by the FDA or the units are needed for a major theater war.
           However, because no official policy concerning the disposition of expired units
           has been issued, one facility is destroying its expired units. For the untested
           units, two storage facilities stated that untested units would be used for training
           purposes only, one would quarantine the units, and one indicated that they
           would deglycerolize and transfuse untested units in an emergency situation.

           When we asked for additional clarifying information, the ASBPO provided us
           with a statement regarding the use of the untested units. They indicated that
           although fully tested frozen units are to be used first, the HIV-1 p24 antigen
           untested units can be used during emergencies until additional fully tested units
           are available. Additionally, if the stock of fully tested and untested units is
           exhausted and other quarantined units are available, the quarantined units may
           be used at the discretion of the command surgeon and the JBPO. However, the
           ASBPO statement is not official policy for the storage facilities.

           The ASBPO stated that no policy outlining identification, use, and disposition of
           blood units that are both untested and expired has been issued. They indicated
           that each facility may be identifying and storing the units differently. Such lack
           of guidance and likely variation in storing blood units complicates the problem
           because it is no longer clear which units of blood, if any, should be used once

9
    The Blood Bank Operational Report, DD Form 2555, is a quarterly report identifying blood inventory
    and operations data. The report is prepared by the blood program organizations, consolidated by the
    SBPOs, and forwarded to the ASBPO.



                                                     10
    fully tested, nonexpired blood units are exhausted. A policy is needed that
    clearly describes the use and disposition of the various blood units and the
    priority for using the units in the event of a contingency.

    Increased Testing. We realize that the readiness of the Blood Program has
    been impacted by an ever-increasing regulatory environment under which the
    ASBPO and the SBPOs have been required to operate. In the past 10 years, the
    FDA has added new tests for the blood, limited possible blood donor sources,
    and established new guidelines for quality assurance and training. One such
    test, the Nucleic Acid Test, is in the investigation stage and expected to become
    a mandatory requirement. The new test further reduces the time between
    exposure to the Hepatitis C virus or HIV and a positive test result.

    Each change in blood testing requirements approved by the FDA has a
    significant impact on the frozen blood program. While freshly collected blood
    may be tested without difficulty, testing frozen blood is more difficult. Once an
    additional test is required, all the frozen blood in inventory should be tested.
    Because some units do not have cryovials, tests may not be possible. To
    manage a likely increase in testing requirements by the FDA, the ASBPO, in
    coordination with the SBPOs, needs to develop a plan for implementing new
    tests in the future as they are required on the current frozen blood inventory. In
    addition, the plan should address the requirements for future frozen blood
    collections to ensure adequate quantities of blood samples are available should
    new tests be required after the unit is frozen.

Stock Replacement and Rotation
    The DoD has not established a written plan to replace the expiring frozen blood
    supply. The ASBPO did not require replacement of expired or expiring frozen
    red blood cell inventory or implement a stock rotation program to use expiring
    blood products during peacetime.

    Stock Replacement. Based on the current FDA-approved shelf life and the
    inventory data provided by ASBPO and the organizations visited, without
    replacement 48 percent of the current frozen blood inventory will expire by the
    end of calendar year 2001 and 71 percent by the end of calendar year 2002.
    The expired frozen blood inventory can only be used in the event of a
    contingency. Although the ASBPO has not required the Military Departments
    to ship frozen red blood cells to the ASWBPLs to replace the expiring
    inventory, the Navy had a requirement for four of its blood donor centers
    (BDCs) in CONUS to freeze and ship red blood cell units to the ASWBPLs. In
    a September 2000 message, the Navy reduced the number of facilities required
    to freeze and ship frozen red blood cells to two facilities. However, only one
    facility shipped units in 1998 and 1999, and that facility has shipped less than
    the Navy requirement. In addition, neither of the two facilities currently
    required to ship units have shipped any units since the issuance of the message.

    The DoD has submitted three separate requests to the FDA for approval to
    extend the frozen shelf life of the product, the last request asking for an
    extension to 17 years. Approval has not yet been granted by the FDA because
    of concerns with the recovery rate of the red blood cells after thawing and
    deglycerolization.


                                        11
    Blood Program management has delayed freezing new red blood cell units
    pending FDA approval of several initiatives that will improve the quality and
    use of frozen red blood cells. Additional information concerning the FDA
    requests and future initiatives regarding the frozen blood program, such as use
    of an automated, functionally closed system, is in Appendix E.

    Stock Rotation. A stock rotation program would require peacetime use of the
    frozen blood. While Joint Publication 4.02-1 allows a 72-hour shelf life after
    thawing and deglycerolizing for wartime purposes, the FDA has approved only
    a 24-hour post-thaw shelf life, which would apply during peacetime. The short
    shelf life hinders the use of the frozen red blood cells in peacetime because
    blood is often cross matched the day prior to a surgery and, depending on need,
    may not be used for 1 to 2 days after surgery, far exceeding the 24-hour shelf
    life. If DoD receives FDA approval of the proposed initiatives for freezing and
    deglycerolizing red blood cells, the post-thaw shelf life will increase to 14 days,
    improving the feasibility of using frozen blood in peacetime. However, FDA
    approval and DoD implementation of the new technology will take time.

    The DoD continues to support the frozen blood program as one of the methods
    to meet future blood needs for wartime. The ASBPO stated that frozen blood is
    one aspect of a complete blood program. If the frozen blood program is to stay
    viable, DoD must develop a plan to eventually have a frozen blood inventory
    composed entirely of fully tested, nonexpired units. That replacement plan
    could include rotating the stock and using the frozen products during peacetime.
    The DoD needs to determine if using frozen products in peacetime is feasible,
    and if so, the Assistant Secretary of Defense (Health Affairs), in coordination
    with the Surgeons General, should develop an implementation plan.

    The ASBPO estimates the cost to replace blood that has exceeded the 10-year
    frozen shelf life will be approximately $7.6 million. The estimate does not
    include replacing the blood stored at the ASWBPLs, the BDCs in CONUS, or
    on the ships. The Military Departments have not budgeted to replace the
    untested or expiring inventory. If the frozen blood program is to continue, the
    Military Department Surgeons General must include in future budgets the cost
    for replacing the untested and expired frozen blood inventory.


Inventory Reporting and Accountability
    DoD did not have accurate frozen red blood cell inventory reporting and
    accountability which could impact major theater war operations. The DoD does
    not know the number of units that are untested, expired, or both untested and
    expired. The problem may multiply over time.

    In addition, delaying replacement of untested and expired frozen red blood cells
    will continue to force the DoD to rely on untested, expired blood to meet
    contingency inventory requirements. It will take time to obtain FDA approval
    for extending the shelf life of frozen red blood cells, freezing of platelets, and




                                        12
    allowing DoD use of the new automated, functionally closed systems. If a
    major theater war should occur in the next few years, unless DoD establishes a
    frozen blood replacement strategy, the initial blood supply will be composed
    primarily of untested, expired, or both expired and untested red blood cells.


Management Comment on the Finding and Audit Response
    Armed Services Blood Program Office Comments. The ASBPO partially
    concurred with the finding. They concurred that additional frozen red blood cell
    inventory reporting is needed by the unified commands, the ASWBPLs, the
    Navy ships, and the blood product depots, including reconciling unit inventory
    with cryovial inventory. However, they did not concur with the statement that
    the inventory was not adequate to meet contingency requirements. Based on the
    April 8, 1996, FDA letter, the ASBPO considers untested units that are
    appropriately labeled suitable to meet military needs. In addition, for
    contingency purposes, the ASBPO plans to use frozen red blood cell units that
    are up to 21 years old as approved by the Defense Medical Standardization
    Board. The ASBPO agreed that the policy regarding the use of expired blood is
    not clear, and they will issue a policy letter and update the Technical Manual to
    correct the problem. In addition, the ASBPO plans to issue guidance that
    outlines the new inventory requirements after revised unified command
    requirements are finalized. The ASBPO agrees that the current inventory will
    eventually have to be replaced. However, the ASBPO stated that replacement
    of the inventory is not practical until they receive FDA approval of new blood
    freezing technology that offers enhanced efficiency and utilization.

    The ASBPO partially concurred with our finding statement concerning the
    clarity of the policy regarding standard identification, use, and disposition of
    inventory. They acknowledged that decisions were not always well
    documented, communicated, and followed up. They also stated guidance will
    be issued regarding quarantined blood products. Regarding plans for
    replacement of untested and expired blood, the ASBPO stated a plan has not
    been formalized because the focus has been on improving both the product and
    the process for producing frozen red blood cells. Before any replacement plan
    is initiated, the ASBPO will formulate a plan to validate the inventory, compare
    it with the inventory requirements in the operations plans, and then issue
    guidance to the Services and the unified commands.

    The ASBPO believed the impediment to the successful management of the Blood
    Program has been insufficient staffing at the ASBPO, the SBPOs, and the
    JBPOs. As a result, the focus of meeting the ever-increasing FDA regulations
    to maintain peacetime requirements, combined with insufficient staffing in the
    unified commands and the Military Departments, has impacted the ability to
    oversee the readiness elements of the Blood Program.

    Audit Response. The ASBPO concurred with the key issues in the finding.
    Regarding the partial concurrence on the availability of blood for contingency
    purposes, we revised the finding and supporting data to accommodate FDA
    approval of the appropriately labeled, untested units for military need. We also
    revised the report to allow for contingency purposes frozen red blood cells that
    are more than 10 years but less than 21 years old. We support the ASBPO


                                       13
effort to eventually replace the frozen red blood cell inventory when the new,
improved equipment is approved by the FDA. We also agree that the program
offices are not adequately staffed. Sufficient staffing is critical in light of the
ever-increasing FDA requirements, the constant changes in technology, and the
increased need for oversight by the SBPOs and the JBPOS to ensure readiness
needs, as well as peacetime needs, are being met.

Navy Comments on Discussion of Navy Inventory. The Navy requested
clarification regarding the discussion of frozen blood requirements at Navy
facilities. The Navy stated that the Navy Instruction does not expand on the
ASBPO and unified command requirements, instead the Instruction supports
them. They further stated that the ASBPO and unified command requirements
supercede the Navy Instruction and that the Navy Instruction is no longer valid
and is under revision. The Navy indicated that their facilities in USEUCOM
and USPACOM meet the requirements based on the ASBPO Blood Product
Letter and the revised unified command operations plans. In addition, in an
October 24, 2000, memorandum, the Navy revised the frozen blood
requirements for CONUS facilities. Regarding ship inventory, the Navy stated
that some frozen red blood cell units are designated for the ships and reported in
the ships’ inventory, although not on board the ship. In conclusion, the Navy
declared that adequate frozen units exist to meet full Navy mobilization
requirements if units located at Navy CONUS and overseas facilities and at the
ASWBPLs are considered.

Audit Response. The Navy revised its inventory requirements on October 24,
2000, after the draft report was issued. The draft report identified several Navy
facilities that failed to meet inventory requirements in effect at the time the draft
report was issued. We modified the audit report to reflect current inventory
requirements. In addition, we deleted the statement that the Navy Instruction
expanded the ASBPO and unified command requirements. We also revised the
report to include ships-in-port inventory with the inventory of the facility storing
the blood, resulting in the ships not meeting their inventory requirements.
However, we did not delete reference to the Navy Instruction for two reasons.
First, the Navy Instruction has never been rescinded. We have no
documentation other than the recent comments to the draft audit report that
indicate the Instruction is no longer valid. If the Instruction is not valid, the
Navy should cancel the Instruction. Second, neither the ASBPO letter nor the
unified command operations plans state that their requirements supercede the
Navy Instruction. The Navy has the authority to have additional requirements
other than those in the ASBPO letter or the unified command operations plans.
We consider the Navy Instruction and Memorandums as support for their
additional needs. In addition, neither the USEUCOM or USPACOM operations
plans address ship requirements, and those ships may have to be supported by
Navy facilities outside CONUS. However, even with the revised requirements,
the Navy did not fully meet its inventory requirements.

USPACOM Comments on Meeting Inventory Requirements. USPACOM
explained that the finding was based on operations plans currently under
revision and that inventory levels are adequate when the revised requirements
are used.




                                     14
    Audit Response. We acknowledge that the operations plans are under revision,
    which is included on pages 5 and 8 of this report. However, USPACOM may
    have to redistribute inventory to meet facility-specific requirements.


Recommendations, Management Comments, and Audit
Response
    A.1. We recommend that the Director, Armed Services Blood Program
    Office, in coordination with the Surgeons General of the Military
    Departments and the Joint Staff:

           a. Issue policy that:

              (1) clearly defines the various categories of blood unit status,
    such as available, training, quarantined, untested, or expired;

             (2) requires all categories of blood unit status be reported on the
    Blood Bank Operational Report; and

               (3) clearly identifies the use and disposition of each unit,
    including those with multiple statuses.

    Armed Services Blood Program Office Comments. The ASBPO concurred
    and will issue a policy letter that specifies the terms to be used and define each
    term. Additionally, they will specify the proper use and disposition of units and
    the priority of use of units during contingencies. Further, the ASBPO will
    determine procedures for verifying inventory categories and incorporate
    inventory control management in a formal management plan and update the
    Blood Bank Operational Report to more accurately reflect the status of the
    frozen red blood cell inventory. The ASBPO stated that corrective actions
    would be accomplished during March through August 2001.

    Navy Comments. The Navy stated that clarification was needed regarding
    guidance on the use and disposition of non-HIV antigen tested units. They
    reported that the ASBPO and the Navy issued policy addressing that issue in
    1996.

    Audit Response. While some policy had been issued, the current guidance did
    not adequately explain all the categories of frozen red blood cell units. We
    requested use and disposition guidance be issued that addresses all of the frozen
    units, not simply the untested ones. The guidance should clearly define the
    different categories and clearly identify the use and disposition of each unit,
    whether available, training, quarantined, untested, or expired. In addition, per
    the ASBPO, the 1996 letter issued by the Assistant Secretary of Defense (Health
    Affair) referenced by the Navy is no longer valid and is being rescinded by the
    ASBPO.




                                        15
      b. Develop a plan of action for implementing new tests as the tests are
required on frozen blood units in the future. The plan should address
additional tests on current frozen inventory and include requirements for
testing future blood collections to ensure adequate quantities of collected
blood is available when the new tests are required.

Armed Services Blood Program Office Comments. The ASBPO concurred
with the recommendation. They will issue a formal plan; however, they believe
the current policy to have cryovials for each frozen red blood cell unit allows
for future testing. They will obtain guidance from the FDA if new tests are
required and cryovials are not available or suitable.

       c. Establish management controls to ensure frozen blood inventory
requirements are met at all blood storage facilities with fully tested,
nonexpired frozen blood units.

Armed Services Blood Program Office Comments. The ASBPO partially
concurred with the recommendation, stating that fully tested, or appropriately
labeled, nonexpired (21 year old) units, meet inventory requirements. They will
collect information on the number of units retained for contingency purposes
only, that is, not fully tested or more than 10 years old. The units will be
appropriately labeled or quarantined for contingency use. After FDA approval
and Service acquisition of new blood freezing equipment, the ASBPO will
publish replacement inventory requirements and task the Services to meet them.
In addition, if approval is received from the FDA to use frozen red blood cells
beyond the current 10-year approval period, the expired units will be moved
from quarantined inventory to available inventory.

Audit Response. The ASBPO comments were fully responsive. However, we
continue to believe the ultimate goal should be to have the inventory supplied
with fully tested, nonexpired frozen red blood cell units. We acknowledge that
for contingency purposes, appropriately labeled, untested units, and units more
than 10 years but less than 21 years, are allowed.

A.2. We recommend that the Assistant Secretary of Defense (Health
Affairs), in coordination with the Surgeons General of the Military
Departments, study the feasibility of using frozen blood in peacetime and, if
feasible, develop an implementation plan.

Armed Services Blood Program Office Comments. The ASBPO concurred
with the recommendation. However, they stated that the use of the frozen blood
under the current 24-hour post-thaw limitation is not workable. Once DoD has
a licensed 14-day post-thaw product, the ASBPO will coordinate with the
Services to study the feasibility of using the product at busier transfusion
services.




                                   16
Navy Comments. The Navy concurred with comments. The Navy supports
use of frozen blood in peacetime. However, the facilities with frozen units are
not located near military treatment facilities and have to be shipped. The Navy
stated that full implementation could be costly.

Air Force Comments. The Air Force concurred and agreed to coordinate with
the Assistant Secretary of Defense (Health Affairs), the Army, and the Navy to
study the feasibility of using frozen blood during peacetime.

A.3. We recommend that the Surgeons General of the Military
Departments include funding in future budgets for replacing untested and
expired frozen red blood cell units.

Army Comments. The Army concurred and will submit a funding request after
a replacement plan is developed by ASBPO.

Navy Comments. The Navy concurred with comments. The Navy agreed that
funding must be provided in future budgets for replacing frozen blood
inventory. However, they believe a replacement plan should be designed to
only replace units that exceed the 21-year dating. In addition, replacement
should not be accomplished until equipment is available that will ensure a
14-day post-thaw shelf life, and funding should include continued support for
the new equipment research.

Air Force Comments. The Air Force concurred and agreed to request funding
for replacement of frozen red blood cell units once the ASBPO establishes a
plan for replacing the units and provides cost estimates.

Audit Response. The Army and Air Force comments are fully responsive.
The Navy comments are partially responsive. The Navy agreed that funding
needs to be provided for replacing expired inventory but did not address
replacement of untested inventory. We request that the Navy provide additional
comments in response to the final report.




                                   17
                     B. Mobilization Planning and Training
                     DoD needs to improve mobilization planning and training for the Blood
                     Program. Two of three Military Department blood program offices did
                     not prepare sufficient mobilization planning documents. Nine of the
                     15 blood program organizations visited did not have written, approved
                     mobilization plans10 that would clearly identify actions needed by the
                     organizations in the event of a contingency. In addition, 13 of the
                     15 blood program organizations visited have mobility missions and 6 of
                     those had training problems. Improvements are needed because the
                     Navy and Air Force did not require mobilization planning documents
                     from their blood program offices. In addition, written, organization-
                     specific mobilization plans were not required for Army blood product
                     depots and Navy blood program organizations. Further, the Military
                     Departments did not ensure personnel assigned to augment or backfill
                     blood program organizations were adequately trained to handle their
                     mobility mission. As a result, the blood program organizations may not
                     be able to properly activate in the event of a mobilization.


Mobilization Requirements
            Planning Requirements. For the blood program offices, the Army, Air Force,
            and unified commands have mobilization plans that include the blood program
            office. The Navy blood program office did not have a mobilization plan.

                     •   “U.S. Army Medical Command Mobilization Plan,” November 24,
                         1999, states the Army Blood Program Office is responsible for the
                         Army Blood Program and the office will be required to identify
                         mobilization sources and blood quotas. The Army Blood Program
                         Office has published memoranda and charts that identify the
                         mobilization sources and blood quotas.

                     •   The Air Force “War Mobilization Plan,” undated, outlines the role
                         of the Air Force in supporting the Blood Program, including the role
                         of the major command surgeons, the ASWBPLs, the BDCs, the
                         Blood Transshipment Centers (BTCs), and the Transportable BTCs.

                     •   USEUCOM Appendix 2 to Annex Q, undated, of the unified
                         command’s Operations Plan, provides the concept of operations,
                         tasks, and guidance for distributing blood to support USEUCOM.
                         The plan appendix is supplemented with USEUCOM Directive 67-4,
                         “USEUCOM Joint Blood Program,” August 22, 1999, which
                         provides guidance and responsibilities for the commands and
                         organizations within the USEUCOM area of responsibility.




10
     For this report, mobilization plans include contingency or operations plans.



                                                       18
           •   Draft Appendix 2 to Annex Q, March 2000, of USPACOM
               Operations Plan 5027-98, provides guidance for full operational
               oversight and management of the USPACOM joint blood program.
               The plan appendix is supplemented with USCINCPAC Instruction
               6530.2J, that assigns roles, responsibilities, and authority to the Joint
               Blood Program organizations and describes the coordination of the
               unified, sub-unified, and component command blood programs.

    In addition, the Army and the Air Force require mobilization plans for their
    blood organizations; the Navy does not. Army Medical Command Regulation
    500-5-5, “U.S. Army Medical Command Commanders’ and Medical
    Mobilization Planners’ Handbook,” June 14, 2000, requires BDCs to prepare an
    appendix to the medical treatment facility plan that provide guidance for
    executing the mobilization blood program mission. Air Force Instruction
    41-106, “Medical Readiness Planning and Training,” March 1, 1999, requires
    Air Force organizations and medical facilities to develop medical contingency
    response or concept of operations plans.

    Training Requirements. The Army Technical Manual 8-227-11/NAVMED
    P-5123/Air Force Instruction 44-118, “Operational Procedures for the Armed
    Services Blood Program Elements,” September 1, 1995 (the Joint Publication),
    establishes general training guidance for the ASWBPLs, BDCs, BTCs, and
    blood supply units. It states that blood program organizations are required to
    train at a minimum on an annual basis. The Air Force has expanded training
    requirements to specify more detailed training of their contingency personnel.


Mobilization Planning and Training Readiness
    DoD needs to improve mobilization planning and training for the Blood
    Program. Specifically, the blood program organizations did not consistently
    prepare mobilization plans or ensure personnel assigned to augment or backfill
    blood program organizations were trained.

    Planning Readiness. Mobilization plans were not consistently prepared. We
    visited 6 blood program offices and 15 blood program organizations. Of the
    program offices visited, only the unified commands need to prepare formal
    mobilization plans and both unified commands visited had comprehensive plans.
    The ASBPO does not need to prepare a mobilization plan. Although the SBPOs
    do not need to prepare formal mobilization plans, they should be required to
    complete mobilization planning documents that include, at a minimum, blood
    quotas and mobilization sources. While all three SBPOs established blood
    quotas, only the Army had written reports that identified mobilization sources.

    Mobilization planning by the 15 blood program organizations visited was not
    sufficient. Only six blood program organizations prepared formal plans—four
    had mobilization plans and two used published concept of operations guidelines.
    The organizations with plans were the ASWBPL at McGuire AFB, three BTCs,
    and two transportable BTCs. The remaining nine blood program organizations
    did not have any type of written mobilization plans. Those included six BDCs,
    two blood product depots, and the ASWBPL at Travis AFB. While required by
    the Army and Air Force, none of the BDCs visited had published plans on hand.


                                        19
The following table summarizes the mobilization planning by the blood program
activities.



                                             Mobilization Plans

                                            Number of                Number of
                         Activity         Activities Visited    Activities with a Plan
 Blood Program




                          SBPO                     3                      1
     Offices




                           JBPO                    2                      2

                        ASWBPL                     2                      1

                           BDC                     6                      0
 Blood Program
 Organizations




                           BPD1                    2                      0

                           BTC                     3                      3

                          TBTC2                    2                      2
                 1
                     Blood Product Depot
                 2
                     Transportable Blood Transshipment Center

Of the six blood program organizations that published plans, all were Air Force
organizations. However, only one had a complete plan—the ASWBPL at
McGuire AFB. The mobilization plans prepared by the three BTCs included
most of the required information; however, each plan lacked specifics required
by the Air Force policy. The two transportable BTCs relied on the Air Force
“Air Combat Command Concept of Operations for the Transportable Blood
Transshipment Centers,” February 12, 1999, which outlines the roles and
responsibilities of the transportable BTCs. While that document contains
detailed instructions regarding setting up and operating a transportable BTC, it
does not include organization-specific requirements, such as lines of
communication and transportation support.

Training Readiness. The training of personnel from blood program
organizations with mobility missions was not always adequate. Of the 15 blood
program organizations we visited, 13 had direct mobility missions and 6 of
those had organization-level training problems. The training problems involved
uncertainty about the level of training for personnel who will augment or
backfill the blood program organization. In addition, joint- or unified
command-level training exercises only occurred in one unified command.




                                          20
Organizational Readiness
    The mobilization planning problems occurred because the blood program
    organizations did not consistently prepare mobilization plans. The training
    problems occurred because the Military Departments did not ensure personnel
    assigned to augment or backfill units were trained. While the Air Force has a
    mobilization plan, the plan did not require the Air Force SBPO to prepare
    mobilization planning documents. The Navy SBPO also was not required to
    prepare mobilization planning documents. Further, the Army did not require
    mobilization plans from its blood product depots and the Navy did not require
    plans from its blood program organizations. In addition, none of the Military
    Departments ensured augmentee or backfill personnel were trained to their
    mobility mission.

    Organizational Planning. The Military Departments did not consistently
    require mobilization plans. Each blood program organization has a role in
    supporting delivery of blood to military units in the event of a contingency or
    war. Those roles are outlined in DoD, Military Department, and unified
    command policies. However, the policies are in general terms and are not
    specific to an individual blood program organization.

    The Navy and the Air Force need to require their SBPOs to prepare
    mobilization planning documents. At a minimum, the Navy and Air Force
    SBPOs should include in their mobilization planning documents the requirement
    to establish blood quotas and identify mobilization sources, as is currently
    required by the Army SBPO. While the Navy and the Air Force established
    blood quotas for their blood program organizations, they could not readily
    identify mobilization sources.

    The blood program organizations should have mobilization plans that
    supplement published policies. The mobilization plans would identify how the
    individual organization or unit will operate during a mobilization, including
    clearly defined roles and responsibilities, contacts and lines of communication,
    training requirements, transportation support, and implementing guidance for
    the individual members of the organization or unit. All blood program
    organizations with a contingency or mobility mission should have an
    organization-level mobilization plan or an annex to a medical treatment facility
    or installation plan.

    Organizational Training. The Military Departments did not ensure that
    personnel assigned to augment or backfill blood program organizations were
    trained to handle their mobility mission. A key element of readiness is having
    staff trained to perform the mobility mission. Training contingency personnel
    includes two types of training. First, individual organizations need to complete
    stand-alone, organization-level training so they can learn how to work as a team
    and individuals within the organization can better understand their roles.
    Second, organizations need to train in exercises so they experience interacting
    with other organizations in their area of responsibility.




                                        21
         Organization-Level Training. Organization-level training was not
adequate at 6 of the 13 blood program organizations visited that have mobility
missions. There were organization-level training issues at both ASWBPLs, two
BDCs, and two BTCs. There was uncertainty about the level of training
received by personnel that will augment or backfill the blood program
organization. To ensure familiarity with operational procedures, personnel are
required by the Joint Publication to train annually for their mobility mission.
Ideally, training would occur at the site the personnel will augment; however,
that is not always practical. We believe that for reserve units the annual training
should be at their mobility site or a similar one.

For both ASWBPLs, none of the personnel assigned to augment the unit has
ever trained on site. The DoD Instruction 6480.4 states that Military
Departments should specify the personnel who will staff contingency positions at
the ASWBPLs. While the Army and Navy SBPOs could identify their
augmentees to the ASWBPLs, the Air Force SBPO could not. Without knowing
the mobilization staffing sources, it is difficult to adequately plan for training.
While it may not be a problem with active duty units that may be trained in the
technical functions performed at the ASWBPLs as part of their primary duties,
this is not true for reservists or active duty personnel whose primary mission is
different than their mobility mission. For example, one ASWBPL reported that
when reserve units augmented its unit during Desert Shield/Storm, the reservists
were not trained. The Army is starting to correct the problem by sending one of
its two reserve units assigned to support the ASWBPLs for on-site training in
FY 2001. The Air Force does not have similar plans with its reserve units
designated to augment the ASWBPLs. The Navy does not augment the
ASWBPLs with reserve personnel, but active duty personnel designated to
augment the ASWBPLs that have mobility missions different than their primary
mission should train on site.

The problems at the two BDCs are also related to concerns about the training of
augmentee and backfill personnel. In the event of a contingency, the primary
staff for the BDCs would deploy to augment other units, which would leave the
BDCs extremely understaffed. Reserve units designated to augment or backfill
the BDC have not trained at the unit. The reserve units should perform annual
training at their assigned mobility site or a similar one to ensure they can
perform their mobility functions.

Two BTCs could also have problems if a contingency occurs. At one BTC the
primary personnel had an alternate mobility mission and were to only staff the
BTC until backfill personnel arrive. The contingency units designated to
backfill the initial staff were not known and had never trained on site. At the
other BTC, the primary staff was not adequately trained. While the primary
staff had training sessions, they have never processed blood product shipments
through the equipment. In addition, the team chief at the unit did not maintain a
complete training binder, lesson plans, or after-action reports as required by Air
Force policy.

       Unified Command-Level Exercise Training. Only the USPACOM
JBPO required its blood program organizations to participate in unified
command-level training exercises. During a recent USPACOM field training
exercise, half of a pallet of blood was shipped from the ASWBPL at


                                    22
    Travis AFB through the BTCs and blood product depots to determine if each
    organization performed its mobility mission correctly. During the exercise each
    organization performed its mobility roles to test the blood product processing
    procedures by the local contingency staff. The exercise after-action report
    included lessons learned for transportation planning and re-icing requirements.
    Similar training did not occur within CONUS or at USEUCOM.


Meeting the Mobility Mission
    Without adequate planning and training, the DoD cannot ensure blood program
    organizations with mobility missions will be able to properly activate in the
    event of a contingency. The blood program organization should have published
    approved plans that outline their specific roles and responsibilities, including the
    lines of communication and expected support systems in the event of a
    contingency. In addition, the blood program organizations must be adequately
    trained in their mobility mission to quickly and correctly activate the unit,
    including personnel assigned to augment or backfill the organization.


Management Comment on the Finding
    Armed Services Blood Program Office Comments. The ASBPO concurred
    with the finding. As a part of the ASBPO Management Plan, they will require
    annual assessments from the Services and the unified commands, including a
    review of mobilization plans, status of training, review of equipment and
    supplies, and frequency of exercises.


Recommendations, Management Comments, and Audit
Response
    Revised Recommendation. As a result of management comments, we revised
    draft Recommendation B.2. to clarify the requirement for mobilization planning
    documents.

    B.1. We recommend the Surgeons General of the Military Departments
    establish management controls to ensure that:

          a. All blood program organizations with contingency or mobility
    missions

               (1) prepare written mobilization plans,

               (2) identify augmentation or backfill sources, and

               (3) adequately train their staff.




                                         23
Armed Services Blood Program Office Comments. The ASBPO concurred
with the recommendation.

Army Comments. The Army concurred stating they have actively worked on
realignment, missioning, and training of Reserve components supporting the
blood program. Additionally, an organization mobilization assessment tool was
submitted to individual BDCs to aid in the evaluation of an organization’s
readiness posture and mobilization mission requirements.

Navy Comments. The Navy partially concurred with the recommendation.
The Navy requirements to identify overall staffing sources are covered in the
Bureau of Medicine and Surgery Instruction 6440.5B, “Medical Augmentation
Program.” The policy was revised in May 2000 to include component unit
identification codes for mobilization platforms, including BDCs. The Navy
acknowledged that personnel have not been consistently and officially identified
and trained to operate and augment BDCs and ASWBPLs. However, action is
being taken to correct the problem. The Navy plans to issue a new BDC
Mobilization Instruction that will require each facility to develop a mobilization
plan, identify responsibilities and how the BDC will operate during
mobilization, and staffing and augmentation team training requirements.

Air Force Comments. The Air Force concurred and stated that an Air Force
instruction requires contingency plans for medical elements. The Air Force
Inspection Agency is tasked by that Air Force instruction to ensure blood
program organizations prepare contingency or mobility plans, identify backfill
resources, and evaluate training. The Surgeon General will task the Air Force
Inspection Agency to provide the findings from its biennial evaluations of blood
program organizations to the Medical Readiness Office, Office of the Surgeon
General. In addition, the Air Force stated that augmentation resources are
further identified in Air Force Medical Resource Letters that are updated
semiannually.

Audit Response. The Army comments are partially responsive. The Army
needs to incorporate an oversight capability to ensure that the BDCs complete
the mobilization assessment. In addition, the Army needs to ensure blood
product depots are also evaluated on their readiness posture. We request that in
response to the final report, the Army provide specific details on overseeing the
mobilization planning by the Army blood program organizations.

The Navy comments are partially responsive. The proposed mobilization
instruction addresses mobilization planning and training for BDCs. However,
the instruction does not address mobilization planning for the blood product
depots. Additional comments are needed to explain how and when mobilization
planning and training will be accomplished at the other facilities.




                                    24
     b. All active duty personnel assigned to augment or backfill blood
program organizations are trained in their mobility mission.

Armed Services Blood Program Office Comments. The ASBPO concurred
with the recommendation.

Army Comments. The Army concurred and indicated that they have provided
BDCs with an organizational assessment tool to evaluate their readiness posture.

Air Force Comments. The Air Force concurred and stated the Air Force
Inspection Agency will determine if the requirement is being met and will be
tasked to report the findings to the Medical Readiness Office, Office of the
Surgeon General.

Audit Response. The Army comments are partially responsive. The Army did
not provide details on how they will ensure active duty personnel assigned to
blood program organizations are properly trained in their mobility mission. In
response to the final report, we request the Army provide details on the
oversight method they will use to ensure active duty personnel assigned to
mobility missions in blood program organizations are adequately trained.

The Navy did not comment on the recommendation. We request that the Navy
provide comments on the final report.

      c. Reserve units assigned to augment or backfill blood program
organizations are trained in their mobility mission and, whenever possible,
train at their mobility site or one similar.

Army Comments. The Army concurred and indicated that they are working on
training reserve components supporting the blood program.

Air Force Comments. The Air Force concurred and stated the Air Force
Inspection Agency will conduct a biennial review of the training at the reserve
units and determine if the requirement is being met. The findings and results of
the review will be forwarded to the Medical Readiness Office, Office of the
Surgeon General. In addition, at the next Air Force Annual Tour Allocation
Conference, the Surgeon General will recommend that reserve unit train at the
mobility site.

Audit Response. The Army comments are partially responsive. The Army did
not provide the controls that will be used to ensure the reserve components are
adequately trained. In response to the final report, we request the Army provide
the oversight that is planned to ensure the training is accomplished.

The Navy did not comment on the recommendation. We request that the Navy
provide comments on the final report.




                                   25
B.2. We recommend the Surgeons General of the Navy and Air Force issue
policy that requires its blood program office to prepare mobilization
planning documents that include, at a minimum, blood quotas and
mobilization sources.

Armed Services Blood Program Office Comments. The ASBPO partially
concurred with the recommendation. They stated that because the SBPOs
establish blood quotas, clarification is needed regarding the recommendation.
The ASBPO agreed that blood quotas and mobilization sources should be
included in the Service mobilization plans.

Navy Comments. The Navy partially concurred with the recommendation.
The Navy requested clarification regarding establishment of quotas and
preparation of mobilization planning documents, stating that the Bureau of
Medicine and Surgery does require identification of mobilization staffing
sources and does establish blood quotas.

Air Force Comments. The Air Force partially concurred with the
recommendation. It recommended that we delete the requirement for
establishing blood quotas. The Air Force also stated that currently no
mobilization sources in the Air Force Blood Program Office exist and positions
are being advertised.

Audit Response. The Navy comments are partially responsive. The
recommendation was modified to more clearly explain the intent of the
recommendation. The Navy indicated that they are required to identify
mobilization staffing sources; however, we did not find that the SBPO was
officially tasked to maintain mobilization sources supporting all of the blood
program organizations. In addition, while the Navy SBPO did establish blood
quotas, the requirement to do so was not officially required. We request that, in
response to the final report, the Navy indicate how and when they will formalize
a requirement to prepare mobilization planning documents that include blood
quotas and mobilization sources.

The Air Force comments are partially responsive. The recommendation was
modified to clarify our intent to formalize the requirement to establish blood
quotas and identify mobilization sources to ensure it is consistently done in the
future. Regarding the comment on augmentation of staff to the Air Force
SBPO, our recommendation was to ensure the Air Force mobilization planning
documents included mobilization sources at all blood program organizations, not
merely the program office. We request the Air Force provide additional
clarification in response to the final report.

B.3. We recommend that the Director, Joint Staff, in coordination with the
unified commands and the Military Departments, incorporate blood
program distribution and processing into joint- and unified command-level
training exercises.




                                   26
Armed Services Blood Program Office Comments. The ASBPO concurred
and indicated they are working with the Joint Staff Logistics Directorate to
incorporate “blood play” into joint exercises and will continue to do so.
However, the ASBPO acknowledged that the unified commands and the JBPOs
also need to insert the blood play into the exercises.

Joint Staff Comments. The Joint Staff comments include a statement from the
JBPO within the U.S. Joint Forces Command concerning completed training.
Specifically, the Joint Staff statement identified training for area JBPOs and an
exercise held in June 2000.

Audit Response. The Joint Staff comments did not address the
recommendation. The Joint Staff did not indicate how they will ensure blood
program organizations are included in joint- and unified command-level
exercises. In the past, blood training was planned but at the last minute
removed from the training. The Joint Staff needs to address how it will prevent
removal of blood program related training in the future. The statement from the
JBPO within the U.S. Joint Forces Command discussed area JBPO training and
a training exercise, Roving Sands/Purple Caduceus 2000. Regarding the
discussion of area JBPO training, we agree the training is valuable; however,
the discussion did not address organization-level training. Regarding the
discussion of the training exercise, we agree that the exercise is an excellent
start, but the Joint Staff needs to ensure exercises will continue. The Joint Staff
needs to establish a formal process that will ensure training of blood program
organizations continues in the future and on an ongoing basis. In response to
the final report, we request the Joint Staff provide a plan for ensuring blood
program organizations are included in joint- and unified command-level training
exercises.




                                    27
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We examined the Blood Program within the Joint Staff and
    at the blood program offices, the blood program organizations, and the Defense
    Blood Standard System Project Office. We reviewed management and
    operational aspects of the blood program activities to determine the readiness of
    the Blood Program. At all the activities visited we evaluated the integration of
    the activity with other blood program activities, roles and responsibilities in the
    Blood Program, readiness planning accomplished, oversight of or by the
    organization, and roles in determining blood product requirements. In addition,
    we examined staffing, training, and the red blood cell portion of the frozen
    blood program at the blood program organizations.

    We reviewed DoD, Military Department, and unified command blood program
    policies dated from August 1988 through August 1999, as well as contingency
    plans for blood program readiness dated from December 1997 through March
    2000. We compiled blood program operations and personnel cost data for
    FY 1999 from spreadsheets provided by the ASBPO, the Joint Staff, and the
    Military Departments. We did not assess blood transfusion services at any of
    the organizations visited or regulatory compliance issues at the BDCs. Because
    of the relatively small quantity, we did not assess frozen plasma inventory. We
    did not validate the cost data, the inventory data records provided, or the
    inventory requirements outlined in the published policies. We did not use
    computer-processed data for this audit.

    DoD-Wide Corporate Level Coverage. In response to the Government
    Performance and Results Act, the Secretary of Defense annually establishes
    DoD-wide corporate level goals, subordinate performance goals, and
    performance measures. This report pertains to achievement of the following
    goal:

        FY 2000 DoD Corporate Level Goal 2. Prepare now for an uncertain
        future by pursuing a focused modernization effort that maintains U.S.
        qualitative superiority in key warfighting capabilities. Transform the force
        by exploiting the Revolution in Military Affairs, and reengineer the
        Department to achieve a 21st century infrastructure. (00-DoD-2)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Infrastructure and Defense Inventory Management high-risk areas.

    Audit Type, Dates, and Standards. We performed this program audit from
    October 1999 through August 2000 in accordance with auditing standards issued
    by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. Accordingly, we included tests of management
    controls considered necessary.



                                        28
    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD, FDA, Veterans Health Administration, and
    American Red Cross. Further details are available upon request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, requires DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended to evaluate adequacy of the controls.

    Scope of Review of Management Control Program. We reviewed the
    adequacy of the ASBPO and Military Department Surgeons General
    management controls over inventory management, planning, and training within
    the Blood Program. We reviewed management’s self-evaluation applicable to
    those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for the ASBPO and Military Department Surgeons General,
    as defined by DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996. The ASBPO management controls for Blood
    Program frozen blood inventory management and the Military Departments
    management controls for mobilization planning and training were not adequate
    to ensure that the Blood Program was properly managed to meet readiness
    requirements. Recommendations A.1., B.1., B.2., and B.3., if implemented,
    will improve management of the Blood Program.

    A copy of the report will be provided to the senior official responsible for
    management controls in the Offices of the Assistant Secretary of Defense
    (Health Affairs) and the Military Department Surgeons General.

    Adequacy of Management’s Self-Evaluation. The ASBPO, Army, Navy, and
    Air Force officials did not identify the control weaknesses identified by the audit
    because they did not identify the Blood Program as an assessable unit in their
    management control plans. However, in its draft management control program
    instruction, the Navy has included “blood bank procedures” as an assessable
    quality assurance unit. The instruction applies to all activities within the Navy
    Bureau of Medicine and Surgery.

    Armed Services Blood Program Office Comments. The ASBPO partially
    concurred with the Management Control Program issues. They agreed that
    there was not sufficient oversight of the inventory. However, they indicated
    that while they are tasked with inventory management, the Services are
    responsible for mobilization planning and training. They also partially
    concurred with our assessment of the adequacy of management’s self-evaluation.
    Specifically, they indicated that the ASBPO and the SBPOs knew about many of
    the issues discussed in the report and discussed these during the Strategic
    Planning Conferences held in 1999 and 2000.




                                        29
    Navy Comments. The Navy nonconcurred with the Management Control
    Program issues. They stated that the Navy was aware of all the issues identified
    in the report and discussed many during the ASBPO Strategic Planning
    Conferences in 1999 and 2000. In addition, the Navy stated that direct
    management oversight is being accomplished by the Navy Surgeon General.
    The Surgeon General is informed of all blood activities as they occur and played
    an active role in the management of the Navy blood program.

    Audit Response. The ASBPO comments are fully responsive. As a result of
    the comment on responsibility, we revised the section on Adequacy of
    Management Controls to reflect ASBPO responsibility for inventory
    management and the Military Departments responsibility for mobilization
    planning and training.

    We do not agree with the Navy assessment of their management controls. Our
    identification of the key readiness issues may have prompted discussions at the
    2000 conference, but action has not been taken to correct the issues identified in
    this audit report. We do not believe that the Navy SBPO has adequate oversight
    of mobilization planning and training for Navy blood program organizations.

Prior Coverage
    Naval Inspector General Report, “Investigation of Blood Banking Procedures at
    National Naval Medical Center, Bethesda, Maryland, and the Navy Blood
    Program,” October 8, 1998

    Air Force Audit Agency, Report No. 26497051, “Management of the Blood
    Program, 59th Medical Wing, Lackland AFB, Texas (Project 96925105),”
    August 13, 1997

    Systems Research and Applications Corporation “Armed Services Blood
    Program Management Report,” December 18, 1995




                                        30
Appendix B. Armed Services Blood
            Distribution System




                     31
Appendix C. Glossary
   Area Joint Blood Program Office. The organization outside CONUS
   responsible for coordinating requirements and distributing blood products to
   support blood supply units and military treatment facilities in a specific area,
   regardless of the Military Department, as established by the JBPO.

   Armed Services Blood Program. The combined military blood programs of
   the ASBPO, the individual Military Departments, and the unified commands, in
   an integrated blood program support system for peacetime, contingency, and
   war.

   Armed Services Blood Program Office. A tri–Service-staffed, joint field
   operating agency, with the Army as the DoD Executive Agent, responsible for
   coordination of the Blood Program. Program office responsibilities include
   ensuring implementation of blood program policies, as established by the
   Assistant Secretary of Defense (Health Affairs), and standardization of policies,
   procedures, and equipment. The ASBPO is the overall DoD manager for blood
   products for the Chairman of the Joint Chiefs of Staff during military
   contingencies and, when directed by appropriate governmental authorities, for
   civilian relief efforts.

   Armed Services Whole Blood Processing Laboratory. A tri–Service-staffed
   organization, with the Air Force as the DoD Executive Agent, responsible for
   the central receipt and confirmation of blood products from CONUS blood
   banks. The organization is also responsible for the shipment of those products
   to designated unified commands’ BTCs and transportable BTCs.

   Blood Donor Center. Military Department-staffed blood organization
   responsible for the collection and processing of blood products. The BDC may
   be collocated with a blood bank in a military treatment facility. In a unified
   command, a BDC may serve as a blood supply unit.

   Blood Products. A generic name for blood and blood components, including
   red blood cells (liquid or frozen), plasma (liquid or frozen), and platelet
   concentrates.

   Blood Product Depot. A Military Department-staffed organization responsible
   for the strategic storage of frozen blood products in a unified command.

   Blood Supply Unit. A Military Department-staffed unit responsible for the
   receipt and storage of blood products (liquid and frozen) from BTCs,
   transportable BTCs, or blood product depots. It is also responsible for issuing
   blood products to military treatment facilities in an assigned geographic area, as
   directed by an area JBPO. A blood supply unit may be any type unit or facility
   designated by a Military Department.




                                        32
Blood Transshipment Center. An Air Force-staffed unit responsible for
receiving blood products from an ASWBPL, a blood product depot, another
BTC, or a transportable BTC; re-icing the blood products; storing the products;
and issuing the products to blood supply units or military treatment facilities, as
directed by the area JBPO.

Component Blood Program Office. A Military Department-staffed
organization responsible for peacetime coordination and management of a
Military Department’s blood program within a unified command. For the
Navy, that organization may be called the Component Command Blood Program
Manager.

Defense Blood Standard System. An automated information system designed
to support the Blood Program, the Surgeons General, and the Military Health
System readiness goal. System capabilities include blood donor management;
blood product management during creation, testing, inventory, and shipment;
and patient/transfusion service management.

Deglycerolization. The process of removing glycerol from thawed red blood
cells.

Food and Drug Administration. The Government agency that establishes
blood banking regulations and requirements for use by blood banks involved in
interstate commerce and grants licenses to blood banks complying with those
standards. The organization within the FDA that specifically handles blood
banking regulations is the Division of Blood and Blood Products in the Center
for Biologics Evaluation and Research. The Military Departments comply with
those standards and each Military Department Surgeon General holds a license
for its respective blood banks.

Glycerolization. The process of adding glycerol to red blood cells prior to
initiating the freezing process to prevent ice crystals from forming when frozen.

Joint Blood Program Office. The organization within the unified command
surgeon’s office responsible for the overall management of blood products in a
command theater of operations.

Service Blood Program Office. The organization within a Military Department
responsible for the coordination and management of the Military Department’s
blood program.

Transportable Blood Transshipment Center. Air Force-staffed unit and
equipment that can be transported by air, land, or sea to other theater locations.
It is used for receiving, re-icing, storing, and issuing blood products. The
equipment can be positioned on bare base locations or locations with minimal
infrastructure.




                                    33
Appendix D. Blood Program Policies
   DoD Policies.

           DoD Instruction 6480.4, “Armed Services Blood Program Operational
   Procedures,” August 5, 1996, outlines the policies and procedures to carry out
   the responsibilities of the Blood Program during peacetime, contingency, and
   wartime operations. The instruction defines responsibilities of the Army as
   DoD Executive Agent for the ASBPO; the Chairman of the Joint Chiefs of
   Staff; and the Air Force as the DoD Executive Agent for the ASWBPLs, BTCs,
   and transportable BTCs. Also, the instruction defines the scope of the Blood
   Program, which includes the collection, processing, and distribution of blood on
   a local or regional basis according to Military Department-level policies and the
   procurement of blood components from non-DoD sources for military use.

           Army Technical Manual 8-227-11/NAVMED P-5123/Air Force
   Instruction 44-118, “Operational Procedures for the Armed Services Blood
   Program Elements,” September 1, 1995, provides guidance and procedures for
   collecting, processing, storing, and shipping of blood, as directed in DoD
   Directive 6480.4. The manual was developed jointly by the Army, Navy, and
   Air Force. The manual also standardizes the procedures used by the Military
   Departments, describes the operations of the blood program activities, and
   identifies the manpower requirements for the ASWBPLs, BDCs, blood product
   depots, and BTCs.

          Army Manual 8-227-12/NAVMED P-6530/Air Force Handbook 44-152,
   “Joint Blood Program Handbook,” January 21, 1998, identifies the functions
   and responsibilities of the operating organizations of the Blood Program that
   could be involved in the management and distribution of blood during a
   contingency operation. The handbook also identifies procedures for obtaining
   and receiving blood products and outlines the blood distribution system during a
   contingency operation.

   Army Policies.

           Army Regulation 40-3, “Medical, Dental, and Veterinary Care,”
   July 30, 1999, is the overall Army medical policy for medical care. The
   regulation includes a chapter that provides the general policies and procedures
   for the Army Blood Program and outlines the responsibilities of key Army
   officials in managing the Army Blood Program.

          Field Manual 8-10-1, “The Medical Company: Tactics, Techniques, and
   Procedures,” December 29, 1994, discusses health service logistics, which
   includes medical supplies and equipment, medical equipment maintenance,
   blood management, and optical fabrication. The manual outlines how blood is
   received into theater and supplied within the theater of operations.




                                      34
        Field Manual 8-55, “Planning for Health Service Support,”
September 9, 1994, provides guidance to health service support planners at all
echelons of care within a theater of operations. The manual includes a chapter
on blood management that discusses the overall blood program. The chapter
outlines the various blood program offices and their responsibilities, including
the ASBPO, SBPOs, JBPOs, and area JBPOs. It discusses blood to be provided
at each echelon of care, who is responsible for supplying that echelon with
blood, and how each echelon operates within the unified command. It directs
planning to be a coordinated effort between the JBPO and the operations and
plans personnel of the unified command, and that planning should happen on a
continual basis for rapid response to blood support situations.

Navy Policies. OPNAV Instruction 6530.4A, “Department of the Navy Blood
Program,” October 14, 1994, provides organizational and operational policies
and procedural guidance to implement the Navy Blood Program. The
instruction tasks the Secretary of the Navy with the responsibility for the
operation of departmental and command blood programs that ensure the proper
use of blood resources and enable the Navy and Marine Corps to meet
mobilization and contingency requirements for blood and blood products. This
responsibility is delegated to the Chief, Bureau of Medicine and Surgery, who
also serves as a liaison agent with the ASBPO, the other service SBPOs, and the
civilian blood banking community.

Air Force Policies.

       Air Force Instruction 44-105, “The Air Force Blood Program,”
October 1, 1997, outlines the procedures and standards for managing the Air
Force Blood Program. The instruction discusses the overall Air Force Blood
Program and the responsibilities of headquarter and base-level blood program
organizations. It also describes the activation requirements for the ASWBPLs,
Air Force BDCs, the BTCs, and the transportable BTCs.

       Air Force Instruction 44-112, “The Air Force Blood Program Technical
Memorandums,” November 23, 1994, establishes the procedures and assigns
responsibilities for publishing, distributing, and implementing Air Force Blood
Program Technical Memorandums.

Unified Command Policies.

       U.S. European Command. U.S. European Command Directive 67-4,
“USEUCOM Joint Blood Program,” August 22, 1999, provides guidance and
responsibilities for the commands and organizations within the USEUCOM area
of responsibility. The directive outlines the roles, responsibilities, and
procedures for the JBPO, area JBPOs, Component Blood Program Offices, the
component commands, and the naval ships within USEUCOM.

        U.S. Joint Forces Command. U.S. Joint Forces Command Instruction
6530.2B, “U.S. Joint Forces Command Joint Blood Program,” undated draft,
establishes the policy and organization, provides procedural guidance, and
assigns responsibilities for the Joint Forces Command’s blood program.




                                   35
The instruction applies to all Military Departments, subordinate unified
commands, joint task forces, and other forces assigned under the operational
control of the Commander in Chief of the command.

        U.S. Pacific Command. USCINCPAC Instruction 6530.2J, “U.S.
Pacific Command Joint Blood Program,” April 20, 1998, (being revised under
draft instruction 6530.2K), provides the organizational policy and procedural
guidance for the joint blood program within USPACOM. It assigns roles,
responsibilities, and authority to the joint blood program activities and describes
the coordination of the unified, sub-unified, and component command blood
programs. The instruction also gives an operational description of the Blood
Program distribution system within USPACOM and gives specific procedures
for the operation of the BTCs.

        U.S. Southern Command. U.S. Southern Command Regulation 40-5,
“SOUTHCOM Joint Blood Program Policy,” April 28, 2000, provides guidance
and delineates responsibility and authority concerning the U.S. Southern
Command joint blood program. The objective of the policy memorandum is to
establish the command’s joint blood program in accordance with the Blood
Program standards.




                                    36
Appendix E. Future Blood Program Initiatives
         Frozen Blood Products. Freezing blood products is critical to the success of
         the Blood Program in the event of a contingency or war. The Military
         Departments and the unified commands will rely on frozen blood products to
         support the military treatment facilities until fresh blood is sent from CONUS.
         The FDA has approved freezing two of the three primary blood products, red
         blood cells and plasma, but has not approved freezing platelets. However, there
         are limitations with the freezing and use of thawed red blood cells. The DoD is
         working to resolve the limitations on frozen red blood cells and trying to obtain
         approval to freeze platelets. There are no problems associated with freezing and
         using thawed plasma.

                  Red Blood Cells. Red blood cells have both a limited frozen and thawed
         shelf life. Red blood cells’ frozen shelf life is currently 10 years, as approved
         by the FDA. Because the DoD has been freezing red blood cells for more than
         a decade, much of the frozen red blood cell units in storage is reaching the
         approved shelf life and expiring. In addition, thawed red blood cells have a
         short shelf life. Thawed, deglycerolized red blood cells must be used within
         24 hours or they must be destroyed.

         The DoD is aware of the shelf life problems and working to resolve them. The
         DoD has a request pending at the FDA to extend the shelf life of frozen red
         blood cells from 10 to 17 years. The request process began in 1996 when the
         DoD requested an extension of the shelf life of frozen red blood cells from 10 to
         21 years. That request was revised in 1998 for an extension to 15 years and
         again in 1999 when the latest request was submitted for an extension to
         17 years. However, the FDA has not granted an extension because it is
         concerned with the recovery rate of the red blood cells after thawing and
         deglycerolization. The DoD is still working with the FDA to obtain approval.

         Simultaneously with the request for extension, the DoD is working with two
         medical supply companies to develop new equipment that would glycerolize and
         deglycerolize red blood cells using an automated, functionally closed system.∗
         The automated portion of the system would simplify the process, thereby
         reducing personnel requirements and human errors. The functionally closed
         aspect of the system would allow for a more sterile environment, and if
         approved, the thawed red blood cells would have a shelf life of 14 days. While
         new equipment would solve the second limitation with freezing red cells, it
         would not solve the first. The first limitation can be temporarily resolved with
         FDA approval for the extended frozen shelf life; however, a permanent
         resolution requires an effective frozen blood replacement strategy.




∗
 A functionally closed system is a sterile blood collection and processing system where all connections
 between the red blood cell product bag and the disposable transfer set are made using a sterile
 connection, thereby protecting the blood against contaminants.



                                                   37
        Platelets. Platelets are not approved by the FDA for freezing and
thawing. However, the DoD has submitted a request to the FDA for approval
to freeze platelets for up to 2 years. Because fresh platelets have a shelf life of
only 5 days, the use of platelets in the theater is limited unless frozen platelets
are available. The DoD proposal is actually a two-step process. The first step
is to get FDA approval to freeze platelets using dimethylsulfoxide. That process
requires removal of the chemical before transfusion in the same way as red
blood cells are deglycerolized. The second step, which will not occur until after
approval is received by FDA for the first step, is to amend the request using a
different procedure that removes most of the chemical before freezing. The
platelets can then be used immediately upon thawing as is currently done with
frozen plasma.

        Future of the Frozen Blood Program. If the DoD receives approval
for freezing all three blood products and each blood product has a reasonable
frozen and thawed shelf life, how the DoD uses both fresh and frozen blood
could be revolutionized. Instead of relying primarily on fresh blood, blood
products could be frozen, stored in freezers, and used when needed, during both
peacetime and in the event of a contingency or war. Because the three blood
products could be stored at the same temperature (-80°C), storing blood
products would be simplified.

However, the new approach to a DoD frozen blood program requires the
following to be accomplished and accomplishing the tasks is a slow process.

       •   Approval from the FDA for the extension of frozen red blood cells
           from 10 to 17 years.

       •   Approval from the FDA of both steps in the two-step process to
           freeze platelets.

       •   Completion of all tests and trials for an automated, functionally
           closed glycerolization and deglycerolization system and approval of
           the equipment by the FDA.

Accomplishing the three tasks will take time. For more than 4 years, the DoD
has been working with the FDA for approval to extend the shelf life of frozen
red blood cells and has not yet received approval. The submission for freezing
platelets will be a two-step process and the first step has not been approved.
With regard to the third task, one of the two medical supply companies has
submitted a package for FDA approval of its automated, functionally closed
system, which was only a recent submission. The second company, which has a
more efficient system, does not expect to submit a package to the FDA for at
least 2 years.




                                    38
Other Blood Products. Several blood-related products in varying stages of
development could also enhance the blood delivery system in peacetime and
wartime.

       •   Hemoglobin-based oxygen carriers, which will be used as blood
           substitutes.

       •   Freeze-dried blood products, which will not require thawing and
           deglycerolization.

       •   Fibrin bandages, which will reduce blood loss by applying a freeze
           dried foam to a wound to initiate the clotting process.

The hemoglobin-based oxygen carriers and freeze-dried blood products would
minimize or eliminate storage and transportation problems. The fibrin bandage
would allow casualties to survive for a longer period of time before blood is
needed. According to the ASBPO, those products plus the use of frozen and
fresh blood provide the basis for the future of the DoD Blood Program.




                                   39
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Health Affairs)

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Surgeon General, Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Surgeon General, Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Surgeon General, Department of the Air Force
Auditor General, Department of the Air Force

Unified Commands
Commander in Chief, U.S. European Command
Commander in Chief, U.S. Pacific Command
Commander in Chief, U.S. Joint Forces Command




                                          40
Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office
  Health, Education, and Human Services

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                      41
Armed Services Blood Program
Office Comments




                    43
Final Report
 Reference




     Revised




               44
45
Final Report
 Reference




    Deleted




               46
47
48
     Final Report
      Reference




     Revised




49
Final Report
 Reference




    Revised




               50
     Final Report
      Reference




     Revised




51
Final Report
 Reference




    Revised




               52
Joint Staff Comments
                            Final Report
                             Reference




                            See Pages
                            43-52
                            See Pages
                            63-65




                       53
54
Department of the Army Comments




                   55
56
Department of the Navy Comments




                    57
Final Report
 Reference




     Deleted




     Revised




               58
     Final Report
      Reference




     Revised




59
60
     Final Report
      Reference




     Revised




     Revised




61
62
Department of the Air Force Comments
                                       Final Report
                                        Reference




                                       Revised




                                       Revised
                                       Page 19




                    63
Final Report
 Reference




     Revised
     Page 21


     Revised
     Page 26




     Page 16




     Page 17




     Page 23




     Page 23




               64
     Final Report
      Reference




     Page 23




     Page 25




     Page 25




     Revised
     Page 26




65
U.S. Pacific Command Comments




                   66
Audit Team Members
   The Readiness and Logistics Support Directorate, Office of the Assistant
   Inspector General for Auditing, DoD, prepared this report. Personnel of the
   Office of the Inspector General, DoD, who contributed to the report are listed
   below.

   Shelton R. Young
   Michael A. Joseph
   Betsy Brilliant
   R. Thomas Briggs
   Carol N. Gorman
   W. Sterling Malcolm
   Daniel S. Battitori
   Daniel S. Bowers
   Mark A. Vojtecky, Major, U.S. Air Force
